DOE F 1325.8
(08-93)
United States Government                                                              Department of Energy


memorandum
        DATE:     September 22, 2004                                    Audit Report Number: OAS-L-04-22
  REPLY TO
    ATTN OF:      IG-35 (A04LL016)

   SUBJECT: Audit on "Completion of the Terascale Simulation Facility Project"

          TO:     Director, NNSA Policy and Internal Controls Management (NA-66)

                 INTRODUCTION AND OBJECTIVE

                 The National Nuclear Security Administration (NNSA) is constructing the Terascale
                 Simulation Facility (TSF) project at Lawrence Livermore National Laboratory (Livermore).
                 The TSF project will provide space to operate two teraops computers, consolidate office
                 space for Livermore's computation directorate, and provide a visualization theater. The
                 theater will allow weapon scientists and engineers to access, analyze, and evaluate the
                 massive quantities of data generated from the stockpile tools, such as the National Ignition
                 Facility and the Dual Axis Hydrodynamic Radiographic Test facility. The information will
                 be processed through the teraops computers.

                 The Department approved the mission need for the TSF project in November 1997. The
                 TSF was included as a line item construction project in the Department's Fiscal Year 2000
                 appropriation with a $86.2 million total project cost and a completion date of December
                 2005. However, at the start of the project, NNSA stopped the work on the project,
                 eventually causing a 13 month delay. The TSF was approved to restart in October 2000
                 with a revised total project cost of $92.2 million and a revised milestone completion date of
                 September 2006. The scope of the project will involve the construction of a 253,000 square
                 foot building, which will house two computer bays of unobstructed computer floor space
                 and the visualization theater. The building will contain adequate electrical and cooling
                 power to operate two teraops computers, computer room floor space for ancillary classified
                 and unclassified computers, classified computing network, work laboratories, and offices
                 with technical spaces to house 288 scientists and engineers in secure and open work areas.
                 Construction of the TSF building will cost approximately $70 million of the $92.2 million
                 total project cost. The remaining funds will be used to build out the classified computing
                 network, install equipment in the visualization theater, activate the security and fire alarm
                 systems, and put in landscaping next to the building.

                 In addition, the first set ofteraops computers to be installed in the TSF will be the "Purple"
                 and "Blue Gene/L" computers. The cost of acquisition, installation, and cabling
                Sinfrastructure for these two computers will be $207.8 million with an operational date in
                 the fall of 2005. Both the TSF and these two computers are funded under the Advanced
                 Simulation and Computing (ASC) Campaign. The purpose of the ASC campaign is to
                                      2

 develop the computational resources needed to analyze experimental data in evaluating the
 performance, safety, and reliability of nuclear weapons.

The purpose of the audit was to determine whether NNSA will be able to complete the
construction of the TSF project within scope, schedule, and cost parameters.

CONCLUSION AND OBSERVATIONS

NNSA and Livermore should complete the TSF project within scope, schedule, and cost
parameters. Specifically, Livermore has built the TSF building with the required two
computer bays which contain unobstructed computer floor space that will house the two
teraops computers, space for the visualization, theater, and offices and work spaces as
specified in the project baseline. Further, review of the planned electrical requirements for
the computer bays, visualization theater, and office tower showed that the electrical
capacity of 24 mega watts was installed as planned in the project baseline.

Our analysis also showed that Livermore completed scheduled tasks at or prior to their
due dates, which should result in the TSF project being completed ahead of the
September 2006 baseline completion date. For example, we sampled and verified the
actual completion of the installation of the computer room air handling units and the
auto transfer system against the scheduled completion dates. The air handling units,
used to cool the teraops computers, were completed on time. The auto transfer system,
which automatically transfers electrical power routing from the normal operating system
to a back-up power system when electrical power is interrupted, was also completed on
time. Further, except for some minor construction defects such as touch up painting that
remain to be dealt with under the construction contract, the contractor completed the
construction of the TSF building. Since the construction of the building was completed
ahead of schedule, Livermore is using the building to start the installation of equipment
in the visualization theater, build out of the classified computing network, activation of
the security and fire alarm systems, and placement of the landscaping next to the
building.

Our review showed that Livermore should complete the TSF project within the $92.2.
million approved total project cost. As of July 31, 2004, Livermore's actual
expenditures for the TSF project were $79.9 million, which is $1.2 million below the
planned budgeted cost. With actual cost less than the planned budgeted cost each month
and the project significantly ahead of schedule, Livermore is reporting to NNSA that the
TSF project will be completed below the approved total project cost. Livermore
forecasted that they will expend another $11.1 million to complete the project by August
2005, bringing the total project cost to $91 million, which is $1.2 million below the
$92.2 million approved total project cost.

SCOPE AND METHODOLOGY

The audit was performed from March to September 2004 at Lawrence Livermore National
Laboratory in Livermore, California. The scope of the audit covered the construction of the
                                      3

TSF. To accomplish the audit objective, we:

    * Interviewed NNSA and Livermore officials;
    * Reviewed and assessed the Congressional Project Data Sheets, Project Execution
      Plan, construction contract, and milestone and cost schedules;
    * Toured and observed the construction of the facility;
    * Sampled and analyzed planned and actual electrical installation; and,
    * Examined related internal and external management reports.

The audit was performed in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance
with laws and regulations to the extent necessary to satisfy the audit objective. Because our
review was limited, it would not necessarily have disclosed all internal control deficiencies
that may have existed at the time of our audit. Also, since the audit did not disclose a
finding with recommendations, we did not conduct a data reliability assessment.

The Government Performance and Results Act (GPRA) of 1993 was enacted to improve
Federal program effectiveness and public accountability by promoting a new focus on
results-oriented management. Accordingly, the Department developed performance
measures to assess the effectiveness of the construction of the TSF. We did not identify
any instances where the Department was in noncompliance with GPRA.

We coordinated the report with officials at NNSA and Livermore. Since no formal
recommendations are being made in this letter report, a formal response is not required.
We appreciate the cooperation of your staff throughout the audit.



                               6       *-
                                       Lawrence   R. Ackerly, Director
                                       National Nuclear Security Administration
                                        Audits Division
                                       Office of Inspector General

cc: Team Leader, Audit Liaison Team, ME-100
    Audit Liaison, NNSA Livermore Site Office
DOE F 1325.8
(08-93)
United States Government                                                            Department of Energy


Memorandum
          DATE:   September 22, 2004

     REPLY TO
      ATTN OF:    IG-35 (A04LL016)

      SUBJECT:    Final Report Package for " Completion of the Terascale Simulation Facility
                  Project"

            TO:   Linda Snider, Director for Planning and Administration


                  Attached is the required final report package on the subject audit. The pertinent details are:
                  1. Actual Staff days: 94 staff days

                     Actual Elapsed days: 183 elapsed days
                  2. Names of OIG audit staff:

                     Assistant Division Director: Tara Elmore
                     Team Leader:                 Freeman Young
                     Auditor-in-Charge:           Tom Henderson
                  3. Coordination with Investigations and Inspections:
                     Office of Investigations- Adrian Gallegos, Assistant Special Agent-in-Charge,
                     August 30, 2004; and,
                     Office of Inspections - Fatima Pashaei, Program Analyst, August 30, 2004.




                                          -y" Lawrence R. Ackerly, Division Director
                                              National Nuclear Security Administration
                                               Audits Division
                                              Office of Inspector General

                  Attachments:
                  1. Audit Report (2)
                  2. Monetary Impact Report
                  3. Audit Project Summary Report
                  4. Audit Database Information Sheet
bcc: Livermore Audit Group
     NNSA Audits Project File - A04LL016
                                                               C   -~
                            MONETARY IMPACT OF REPORT NO.: O~RSL-9'


1. Title of Audit:      " Completion of the Terascale Simulation Facility Project"

2. Division:            NNSA Audits Division/Livermore Audit Group

3. Project No.:         A04LL016

4. Type of Audit:

       Financial: _                                         Performance:        X
          Financial Statement                                 Economy and Efficiency
          Financial Related                                   Program Results                            X
       Other (specify type):


5.
                                                                                                     MGT.     POTENTIAL
          FINDING                COST                         QUESTIONED COSTS                     POSITION    BUDGET
                              AVOIDANCE                                                                        IMPACT
(A)             (B)          (C)      (D)         (E)           (F)       (G)        (H)              (I)         (J)
                Title       One    Recurring   Questioned      Unsup-   Unre-       Total          C=Concur     Y=Yes
                            Time    Amount                     ported   solved   (E)+(F)+(G)       N=Noncon     N=No
                                    PerYear                                                        U=Undec
      No Findings




TOTALS--ALL FINDINGS           0       0          0              0        0             0          N/A        N/A


6. Remarks: The audit found that Livermore should complete the Terascale Simulation Facility
project within scope, schedule, and cost. There are no recommendations and no questioned costs
made in this report.

7. Contractor:  N/A                              10. Approvals:
8. Contract No.: N/A                             Division Director & Date:         ,           -    (wv/,            ~
9. Task Order No.:       N/A                     Technical Advisor & Date:         __          _         _
                  AUDIT DATABASE INFORMATION SHEET


1. Project No.:   A04LL016

2. Title of Audit: " Completion of the Terascale Simulation Facility Project"

3. Report No./Date OAS-L-04-XX / September XX, 2004

4. Management Challenge Area: National Security & Stockpile Stewardship

5. Presidential Mgmt Initiative: Research & Development Investment (RDI)

6. Secretary Priority/Initiative: National Nuclear Security (NNS)

7. Program Code: NNSA (NA)

8. Location/Sites: Lawrence Livermore National Laboratory Livermore. CA

9. Finding Summary:

   NNSA and Lawrence Livermore National Laboratory (Livermore) should complete
   the Terascale Simulation Facility (TSF) project within scope, schedule, and cost
   parameters. Specifically, Livermore built the TSF building with the planned number
   of computer bays, visualization theater, and offices and work spaces as specified in
   the project baseline. Livermore installed the 24 mega watts electrical capacity for the
   computer bays, visualization theater, and office tower as planned in the project
   baseline. Further, the audit showed that Livermore completed scheduled tasks at or
   prior to their due dates. With the completion of the TSF building, Livermore started
   to use the building to finish the remainder of the project. Livermore is starting the
   installation of equipment in the visualization theater, build out of the classified
   computing network, activation of the security and fire alarm systems, and placement
   of the landscaping next to the building. This should result in the TSF project being
   completed ahead of the September 2006 baseline completion date. Finally, our
   review showed that Livermore should complete the TSF project within the $92.2
   million approved total project cost. Livermore forecasted that they will bring the total
   project cost to $91 million, which is $1.2 million below the $92.2 million approved
   total project cost. There are no recommendations or questioned costs.

10. Keywords:

   Department of Energy
   National Nuclear Security Administration
   Livermore Site Office
   Lawrence Livermore National Laboratory
   University of California
                                               Office of the Inspector General (OIG)
                                          Audit Project Office Summary                                (APS)
                                                                                                                                 Page 1
Report run on:                       September 21, 2004 3:49 PM.


   Audit#': A04LL016             Ofc:    LLA     Title: COMPLETION OF THE TERASCALE SIMULATION FACILI

                                                             ****       Milestones     ****
                                                Planned                End of Survey               Revised         Actual


   Entrance Conference:.....                   01-OCT-03                                      23-MAR-04          23-MAR-04

   Survey:..................                   28-MAY-04                                      16-JUL-04
   Draft Report:.............                  03-SEP-04
   Completed (With Report):.                   30-SEP-04                                      18-OCT-04                      (   )
   ------------     Elapsed Days:                  365                                                210            183
                                                                                                      Elap. Less Susp:
   Date Suspended:                                                Date Terminated:
   Date Reactivated:                                               Date Cancelled:
   DaysSuspended(Cur/Tot):                                       ) Report Number:
   Rpt Title:                                                     Report Type:                       Not Found




                                                ****   Audit Codes and Personnel; ****
  Class:    PER          PERFORMANCE
  Program: DP1           Not Found
  MgtChall: 106          STOCKPILE STEWARDSHI
                                                                                     AD:      255     ELMORE
   Site:          SSA    SINGLE-SITE AUDIT
                                                                                   AIC:       680     HENDERSON
   SecMiss:       NNS    NATIONAL NUCLEAR SEC
                                                                             Team Ldr:        548     YOUNG
   PresInit:             Not Found                                          Tech Adv:         84      CROWDER

                                                   ****      Task Information ****

         Task No:
         Task Order Dt:                                          CO Tech. Rep:
         Orig Auth Hrs:                                          Orig Auth Costs:
          Current Auth:                                          Current Auth Cost:
          Tot Actl IPR Hr:                                       Tot Actl Cost:


                                                            * * ''Time Charges        ****
                    Emp/Cont Name                Numdays           .       L ast   Date,
                    SOKOLOWSKI, P                          2.5            18-SEP-04
                    YOUNG,       F                        12.0            18-SEP-04
                    HENDERSON, T                          79.1            18-SEP-04
                        Total:                            93.6

                                                 S****Keywords****


                    DEPARTMENT OF ENERGY
                                       Office of the Inspector General (OIG)
                                 Audit         Project Office          Summary    (APS)
                                                                                                           Page 2
Report run on:               September 21, 2004 3:49 PM

                                        ****    Keywords ****


                 LAWRENCE LIVERMORE NATIONAL LABORATORY
                 LIVERMORE SITE OFFICE
                 NATIONAL NUCLEAR SECURITY ADMINISTRATION
                 TERASCALE SIMULATION FACILITY
                 UNIVERSITY OF CALIFORNIA



    Loc                         ****   Locationon               o   ****Info
     ode   Description

    LLN    LAWRENCE LIVERMORE NATION


                                S****Finding         Information ****Bud         Mt    Dept        ept      Dept
   Find#             Title                          Type   Amount ;Y       Imp   Pos   Po     ,   Amount    Date




                                        )i
                        Office of the Inspector General (OIG)
                     Audit Project     Office Summary (APS)
                                                                Page 3
Report run on:   September 21, 2004 3:49 PM
